No. ___________
_______________
IN THE
SUPREME COURT OF THE UNITED STATES
_______________
Christy Santiago—PETITIONER
vs.
United States of America— RESPONDENT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The petitioner asks leave to file the attached Petition for a Writ of Certiorari
without prepayment of costs and to proceed in forma pauperis and states as follows:
(1)

Petitioner has previously been granted leave to proceed in forma

pauperis in this case in the United States Court of Appeals for the Fourth Circuit
and the United States District Court for the Western District of Virginia.
(2)

The Petitioner’s affidavit is not attached because the court below

appointed counsel in the current proceeding and a copy of the order of appointment
is appended.

/s/ Charles M. Henter
(Signature)

USCA4 Appeal: 19-4233

Doc: 8-1

Filed: 04/18/2019

Pg: 1 of 2

Total Pages:(1 of 8)

FILED: April 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 19-4233
(2:18-cr-00008-JPJ-PMS-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
CHRISTY SANTIAGO
Defendant - Appellant
___________________
ORDER
___________________
The court grants the motion to withdraw as counsel on appeal.
The court appoints Charles M. Henter to represent Christy Santiago on
appeal. Counsel is referred to the CJA Payment Memorandum and the CJA
eVoucher Page for information on appointment terms and procedures.
CJA authorization for preparation of transcript is obtained by submitting an
AUTH-24 request in the district eVoucher system. New appellate counsel must
contact district eVoucher staff for appointment to the underlying district court case
in order to submit the AUTH-24 request for district judge approval and the CJA 24

USCA4 Appeal: 19-4233

Doc: 8-1

Filed: 04/18/2019

Pg: 2 of 2

Total Pages:(2 of 8)

voucher for transcript payment. Counsel must also submit a Transcript Order Form
to the court reporter and district court and file the same in the court of appeals with
the docketing statement. Upon filing of the Transcript Order Form, the Fourth
Circuit will set deadlines for completion of the transcript.
CJA 20 and 21 vouchers are submitted for payment through the Fourth
Circuit's CJA eVoucher system. Upon receiving email notification of this
appointment from eVoucher, counsel may create CJA 20 and 21 vouchers for use in
maintaining time and expense records and paying for expert services.
In light of this appointment, appellate counsel is granted access to sealed
district court material, with the exception of ex parte or in camera material. Any
transcripts or record material sent to prior counsel shall be provided by prior
counsel to newly appointed counsel. If record items are not available from former
counsel, new counsel should contact the Fourth Circuit Appointments Deputy for
assistance in obtaining these items.
The court having appointed new counsel for purposes of this appeal, any
motion for further substitution of counsel shall be disfavored.
For the Court--By Direction
/s/ Patricia S. Connor, Clerk

